17

ORDER
Before: WARDLAW, NGUYEN, and HURWITZ, Circuit Judges.

A review of the record demonstrates that this court lacks jurisdiction
t

over this appeal because the order challenged in the appeal is not final or
appealable. See 28 U.S.C. 1291; Bird v Reese, 875 F. 2d 256 (9th Cir. 1989)
(order denying a motion for default judgment is not a final appealable*
order). Consequently, this appeal is dismissed for lack ofjurisdiction.
All pending motions are denied as moot.

•'f

*

DISMISSED

7' ,s
*

Id

Appendix A -2-

FILED

Dec 14 2020

'i

MOLLY C. DWYER,CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-17350
GEORGE BOUTROS
Plaintiff-Appellant DC No. 2:19-cv-01080-JAM-DMC
V.
Eastern District of California
CORY HONY: et al
Defendants-Appellees. Sacramento
ORDER
Before: Thomas, Chief Judge, Hurwitz and Bade, Circuit Judges
A review of the record demonstrates that this court lacks jurisdiction over this
appeal because the orders challenged in the appeal are not final or appealable., *
See Fed. R. Civ. P. 54 (b); Chacon v Babcock, 640 F. 2d 221, 222 (9th Cir. 1981)
(order is not appealable unless it disposes of all claims as to all parties or
judgement is entered in compliance with rule ); Green v Occidental Petroleum
Corp., 541 F.2d 1335, 1338 (9th Cir. 1976) (district court must be “of opinion”
that the criteria of 28 U.S.C. 1292 (b) are met; court of appeals is without
authority to assume an appeal unilaterally under 1292(b)); see also Bird v
Reese, 875 F. 2d 256 (9th Cir. 1989)(order) (order denying a motion for default
judgment is not a final appealable order); WMX Ttechs., Inc. v Millerr 104 F
3d 1133,1136 (9th Cir. 1997 (en banc) (disnhssal of complaint with leave to
is not appealable). Consequently, this appeal is dismissed for lack of jurisdiction.
DISMISSED

o

19

Appendix B
. IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA
No.2:19-CV-1080-JAM-DMC
GEORGE BOUTROS,
Plaintiff,
v..
CORY HONY, et al
Defendants
m

mm INGS AND RKGOMMFiNnATTONS

20

?*

Plaintiff,-who is proceeding pro se, brings this civil rights
action. Pending before the court is defendants’ motion to dismiss
plaintiffs first amended complaint. See ECF No. 43. The matter was
submitted on the briefs without oral argument pursuant to Eastern
District of California General Order 612.

v

1. BACKGROUND

This

action was initiated with a complaint filed on June 13,2019. See EOF
*

No. 1. Plaintiff named the following as defendants: (1) Cory Hony, the
Butte County Sheriff; (2) JD Jones, the Butte County Undersheriff;
(3) Smith, a Butte County Deputy Sheriff; and <4) Dick Ramsey, the
Butte County District Attorney. See id at 1-3. Because plaintiff paid
the filing fees for this case, the complaint was served without
pre-screening by the court. On August 2, 2019, defendants moved to
dismiss the original complaint. See ECF No. 24.
Following briefing on defendants* motion, the Court issued*
findings and recommendations on November 22,2019. Sfig ECF
No. 32. The Court summarized plaintiff’s allegations as follows:
> ^ Plaintiff states that he was attacked by his “angry white”
neighbor on August 18, 2018. Plaintiff claims he was “creatively
made a suspect by introducing the mental illness factor”. According
to plaintiff he complained and requested an internal investigation.
Plaintiff states that, “shortly thereafter; he was arrested in a
“51/50” hold for mental illness. Plaintiff claims this was

dbnem retaliation for requesting an internal investigation

“

regarding the August 2018 incident.
#*

Next, plaintiff alleges that he reported “another incident”to
the Butte County Sheriff on September 2,2018. According to
plaintiff he was threatened by a neighbour with a gun. Plaintiff
♦

states there was no follow-up on his report.
Next, plaintiff claims his residence was robbed several times
and his 911 calls went unanswered Plaintiff states he gave Butte
County Sheriffs Department officer Cooper a meth pipe that was
left by the robber and that plaintiff was later arrested for
possession of the pipe According to the Plaintiff, he was denied
protection, and falsely arrested by the Butte County Sheriffs
Department. Plaintiffs complaint makes no specific references to
any Of the named defendants, id, at 2.
The Court recommended that defendants’ motion to dismiss to be
granted and that plaintiff be provided an opportunity to amend, gee
Id. at 6. In doing so the Court concluded:
Here, the allegations of plaintiff's complaint make reference
. to any of the four named defendants, Mere designation of
defendants in the caption of the complaint, without specific
allegations connecting the alleged wrongful acts to specified
defendants, does not satisfy the requirements for proper pleading
under MonelL As uch the complaint here fails to establish a causal
connection between any defendant and a violation

• V

r"*
i

<9

*.

v

4

22

4

plaintiffs civil rights. Plaintiffs complaint should be dismissed,
with leave to correct the deficiencies through an amended pleading
Id. at 5
The District Judge assigned to this case adopted the
November 22, 2019, findings and recommendations in full oil 21
January 24,2020. SseJECF No. 39. Thereafter, plaintiff filed his
first amended complaint on January 29, 2020.

ECF No. 40.

H. PLAINTIFFS ALLEGATIONS
<

t. i •

i-

Plaintiff names the following defendants in the first amended
complaint: (1) Butte County Sheriff Honea (erroneously sued as
"Hony” in the original complaint); (2) Lt. Smith; (3) Lt. Jones; and

• -

i

<4) DA Mike Ramsy. See ECF No. 40, pg 1.
?•,

j

t

m

t

Plaintiff claims that he was the victim of a beating by ‘‘an
I

angry white guy” on August 18, 2018. See Id. at 4. According to
plaintiff Butte County sheriff’s deputies CalMns, labeled plaintiff
“mental and aggressor”-and attempted to charge plaintiff with a
' crime. Seaid. Plaintiff alleges-that “BCSH [Butte County Sheriff

i

.

*

i

Hony], the blohd, blue eyed darling Madonna of Butte county (sic)
loves to parade more than policing, and or training
r

28
well his deputies” Id. According to plaintiff, Sheriff Honea “was
alerted to the situation and his reaction was that the P [Plaintiff]
was an assole. “ See Id. at 5Plaintiff states that he complained about the treatment he
received and requested an internal affairs investigation. See Id.
According to plaintiff, an unknown sheriffs department agent,
whom plaintiff describes as “poorly trained” led plaintiff to believe
that he was conducting an internal affairs investigation. See IdPlaintiff states this individual “pulled what looked like a torn piece
of toilet paper from his rear ass pocket, scribbled legal waste on it,
and said, * Now we have an official investigation/” Id- Plaintiff
claims he contacted the sheriffs department to follow up and was
told by defendant Jones that he was /frivolous and unfounded” Id.
"-c

Next, plaintiff complains that other deputies of the Butte *
County Sheriff’s Department who are not named as defendants,
Deputies Lobb and Dickersonn .“falsely 51/50-ed the P [plaintiff] in
apparent retaliation.” IsL Plaintiff alleges that defendant Honea has
to date refused to forward any of the documents, reports or body
video cam of that [August 18, 2018] incident to the P-{plaintiff] ” Id.
'

In connection with this allegation, plaintiff further claims that
v. defendant Honea “not only is a ~
.v.

v

T- *

ft

24
- • criminal operating under the color of law, he also is an obsturctor. “

- LL

• + •

*•

Plaintiff next claims that he was threatened with a'gun “by
an angry white guy” on September 2, 2018, after that individual did
what Plaintiff described as “a wheelie on a property adjacent his
home...” ECF No. 40 pg 5. It is unclear whether “his” refers to
plaintiff, the “angry white guy”, or some other person. Plaintiff
states he called 911 and two ‘-poorly trained and discriminating “
Butte County Sheriff’s department deputies arrived on the scene,
discriminated against him, denied him equal protection, and tried
to charge him with “crime” plaintiff was perpetrated against him by
the .white guy”. Id. At 5-6. Plaintiff alleges these deputies "went on
a discussion orgy .with the white gun carrying threatening guy; on
how crazy the P [Plaintiff] is. See Id. at 6. Plaintiff claims the
deputies tired to charge the brown crazy sand nigger with the ’
crimes of the white Felonious guy, AGAIN. “ Id. Plaitinff
characterizes this alleged conduct as “legal rape ” IdV

• **

- • * - Next plaintiff alleges: — ►
. \
l. -V t 4

r'

r
i -

f

. * The P (plaintiff] was the victim of multiple home invasions/
breakings/ robberies. All incidents were 911 called. Only one time
did BCSH [referring to defendant Honea] respond. Only once. The
rest of the time the P [plaintiff] was denied service.

V

25
Only once, the P [plaintiff] was served by BCSH. And this was the
service. Deputy Brandon, another poorly trained
anddiscriminatiung deputy of BCSH, arrests the P [plaintiff], the
911 caller, the “crazy sand nigge^” because the Pfplaintiffj offered
to deputy Brandon evidence of the home invasion, a meth pipe

,

dropped by the home invader/and robber. The P {plaintiff] was
hoping for a DNA test and an arrest on the invader, another white
guy, instead the P [plaintiff]' gets arrested. YOU READ THAT
RIGHT, the brown crazy sand niger [sic] gets arrested because the
brown sand nigger was robbed by a white guy. So P [Plaintiff] gets
arrested, but nothing happens after that, no charges...nothing. That
was legal rape numkber 4, 5, and 6.

In what plaintiff says is “Legal Rape no. T, plaintiff states he
was ambushed by four “meth heads/criminals'' and physically
assaulted on March 5, 2019. See Id. at 6-7. According to plaintiff, he
was denied services by defendant Honea. See Id. at 7. Plaintiff next
states that, on March 8, 2019, he was again ambushed by two
“meth heads/crihiinals that operated as muscle for a known drug
dealer in town, that operated out of Joshua’s beauty salon on
Feather River BLVD andMontgomery/’ ECF No. 40 pg. 7. Plaintiff
adds: ...Fearing for his life, the P [plaintiff] fled his own home,
called for help and then

:h

2f

5 *

returned to the scene after finding some encouragement in
the crowds that were building up. P [plaintifl] yelled for
- people to call 911. P (plaintiff was running scared, yet did
not want to see the two felons two white felons flee the scene.
P (plaintiffjm was chased by one to the felons, so P [plaintifi]
fled-and hid in the Wild River Park where he was arrested.

IsL
Plaintiff states he “had a history “ with Joshua,the salon
owner and alleged drug dealer, and Cyrus, also an alleged drug
dealer, and their drug-running operation. Id- Plaintiff claims he was
“busy cleaning the streets of Oroville as a community service”
because the “street cleaner” presumably referring to defendant
Honea was“busy parading ” M- Plaintiff adds:
.....BCSH [defendant Honea], because of his poor

m

training and discriminatory practices, has let his town down,
.*■

and the meth head garbage fill the street. The P [plaintiff]
somehow got entangled with the Joshua drug running

-

* -.: °Peration and his muscle man, the white criminal Cyrus.

I&
4

► .

Next, plaintiff alleges he was in a “legal war”

V-

27
with Joshua’s "drug operation” and was attempting to “serve
papers” on Cyrus when Cyrus threatened plaintiff. See Id. at 8.
According to plaintiff, defendant Smith, a Butte County Sheriffs
Lieutenant, “refused to cooperate with CHP’s request to get
involved in arresting Cyrus... ” Id. Inthat plaintiff states is “ legal"
rape 8”, plaintiff claims: “ The P [plaintiff] strongly believes, that
Lt. Smith, did not want to cooperate with the CHP, because the
criminal Cyrus is white and the messenger was a brown and crazy
sand nigger, “ Id'Plaintiff states that he was arrested on march 8, 2019, denied
a phone call, called names,...
26 insulted and humiliated, and not treated as innocent See Id. He
states he was never asked for his version of events. See Id. Plaintiff
next describes “Legal rape 9”
.....P (plaintiff] was simply the victim of a white
criminal, a white Cyrus protected by white criminals
operating under the color of law... Nothing happened for a
long time after it. No charges, no lets indict crazy fluff in a
hurry., nothing.:simply another fake arrest and legal rape.

Id.
Next, plaintiff outlines his claims against defendant Ramsey,
who is the Butte County District Attorney, Dick Ramsey, and the P

28

•

? -

{plaintiff] mentioned but did not go beyond an initial warrant draft,
never prosecuted any ofthe more than 12 separate incidents where
the P [plaintiff] was a victim and or charged the Victimizer. Instead,
demented DA Dick Ramsey-thru [sic] his agents has consistently,
and repetitively and always, tried to charge the “crazy brown

'" ;

sandmgger” with the crimes of the White felonious criminals [sic]
that he is protecting. HOW Nauseating.
ECF No. 40 pgs 8*9
In the next several pages of the first amended complaint
plaintiff alleges generally he was denied
,

protection and falsely

arrested. See Id. at 9-10. According to plaintiff, his allegations
establish a “tight criminal enterprise ".between defendants Honea
and Ramsey “whereby [sic] white felonious individuals receive
protection and the victim of different color is presente&as mentally
ill and maliciously falsely .and viciously prosecuted. See Id. at 10.
Plaintiff next describes his treatment in the Butte County
JaiL See Id. at 11. According to plaintiff:
*

...In that Jail when the P (plaintiff] informed His jailer
that he is not in the jail to eat, but rather to pay bail money
and resolve An arrest warrant. The p [plaintiff] was
ruthlessly and roughly stripped naked, and thrown naked in a
3x5 naked room with

*

'

<v

29
windows for eyes to pry.The p [plaintiff] was ridiculed, called
a stupdid asshole[sic], denied attorney visit, phone call,
stripped naked, not given bathroom breaks, not fed or
watered; The [plaintiff] swam in his urine at night at BCSH
[referring to defendant Honea] spa...;

Id.

Next, plaintiff contends the “legal rapecontinues” by
“Demented Dick DA” preumabley referring to defendant Dick
Ramsey, the Butte County District Attorney. ID. According to
plaintiff:
... .Last attmepted rape, is when Deputy Brandon,
reponding to a 911 call by the P [plaintiff, who just got
physically assaulted by an angry white neighbour boy.
Deputy Brandon, agent of Butte county MADONNA, Butte
County Sheriff Honea, told the P [plaintiff] that he, agent
Brandon, believed that the white neighbor boy should have
been arrested but was overruled by his superior that told him
the DA will decide whether to arrest. YOUR HONOR... •any
takers for a bet that the demented DA Dick RAMSEY, right
now is contemplating another legal rape, as he has not yet
decdied whether to arrest the P [plaintiff} for the beatng P
(plaintiff] sustained on the hands of a white boy This is
RAPE 13.

-

- ^

---r.

-

30

€ *

..........^Wat1V-12:
p t

Plaintiff alleges “Defendants" discriminated
against him based on race. Id. at 12. Plaintiff also alleges
“Defendants imposed fear and terror.,,."Id. at 13
Finally, plaintiff contends “Defendants’ ’ actions were
outrageous, extreme and illegal, “warranting punitive damages. Idm. STANDARDS FOR MOTION TO DISMISS
In considering a motion to dismiss, the Court must accept all
allegations of material fact in the complaint as true. See Erickson v
Pafdug, 551 U.S. 89, 93-94 (2007). The Court must also construe
the alleged facts in the light most favorable to the plaintiff See
Scheuer v Rhodes. 416 U.S. 232, 236 (1974); see also Hosn. Bldg.
.

£o. y,Rex Hosn. Trustees. 425 U.S. 738, 740 (1976); Barnett
v.Centoni- 31 F 3d 813, 816 (9th. Cir. 1994) (per curiam). All
ambiguities or doubts must also be resolved in the Plaintiffs favor.
See Jenkins y, Mckeithen. 395 U.S. 411, 421(1969). However, legally
„ co^clusoiy statements, hot supported by actual factual allegations,

v —need not be accepted. See Ashcroft v. Iobal. 129 S. Ct. 1937, 1949-50
k

(2009). In addition, pro se pleadings are held to a less stringent
standard than those drafted by lawyers.

V

31

*r—

See Haines v. Keraer 404, U.S. 519, 520 (1972). In deciding a Rule
12 (b) (6) motion, the Court generally may not consider materials
outside the complaint and pleadings. See Cooper v Pickett. 137 F.
filfi

(9t.h Cir 1998V Branch v. Tunnell. .

30 14 F. 3d 449 453 (9th Cir. 1994). The Court may , however
consider (1) documents whose contents are alleged in or attached to
the complaint and whose authenticity no party questions
„ 14 F. 3d at 454; (2) documents whose authenticity is not in
question, and upon which the complaint necessarily relies, but
which are not attached to the complaint, see Lee v, City of Los
Angeles. 250 F. 3d 668k, 688 (9th Cir. 2001); and (3) documents and
materials of which the court may take judicial notice see Barron v
Reich. 13 F. 3d 1370, 1377 (9th. Cir. 1994). Finally, leave to amend
must be granted “[ujnless it is absolutely clear that no amendment
can cure the defects. " Luckas v. Den’t of Corr. 66 F. 3d 245, 248 (9th
Cir. 1995) (per curiam; see also Lopez v Smith. 203 F. 3d 1122, 126
(9th Cir. 2000)(en banc)

IV. DISCUSSION
Defendants contend the first amended complaint must be
dismissed because: (1) plaintiff fails to allege facts to state a claim
upon which relief can be granted; (2) the first amended

9,

32
ure 8;

ITT* “”d

<«

*»«, i. entfefed to

prosecutorial immunity; and (5) defendant H
oneq, Smith, v .
and Jones did not owe plaintiff any duy of protection.
A. Ruift ft
Defendants contend:
Here, Plaintiff’s FAC foils to give Defendants
a fair
opportunity to frame a responsive pleading and requires defendants
-and this Court to
for the I '
* gU68S 88 40 the CMmS b6ing 3S8erted ^d the basis
for the daims, For example, the FAC
continues to not specify against
whom the causes of action
irrelevant allegations such as

entities , and includes entirely

unrelated grievances and details
regarding Plaintiff’s criminal matters. Defendants
cannot discern
what claims Plaintiff i
is asserting against them and cannot
formulate a meaningful defense
or response to the First Amended
Complaint.
CF No. 43-1, pgs 6-7

w, civil rTOdure m @

nsr 'T”‘ °f ^

*- “>•—- -i»««

her m order to “give the defendant fair notice of what

33
%

■*

■ >the claim is and the grounds upon which it rests.” Bell AtL Corp v.
Twomblv. 550 U.S. 544, 555 (2007) (quoting Conlev v. Gibson 355
U.S. 41, 47 (1957)). However, in order to survive dismissal for failure
to state a claim under rule 12 (b) (6), a complaint must contain more
than “ a formulaic recitation of the elements of a cause of action;” it
must contain factual allegations sufficient “to raise a right to relief
above the speculative level. “ Id. at 555-56. The Complaint must
contain “enough facts to state a claim to relief that is plausible on its
face.” Id. at 570. “ A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.”
IghfiL 129 S. Ct at 1949. “The plausibility standard is not akin to a
‘probability requirement/ but it asks for more than a sheer
possibility that a defendant has acted unlawfully “ Id. (quoting
Twomblv. 550U.S. at 556). “Where a complaint pleads facts that are
‘merely consistent with a defendant's liability, it ‘stops'lhort of the
line between possibility and plausibility for entitlement to relief.”Id.

'*

(quoting Twomblv. 550 U.S. at 557).
While plaintiffs first amended complaint is certainly not the model
of clarity and conciseness one would expect of an experienced
attorney, plaintiff is not an attorney and the Court declines to hold
plaintiff to the same standard. See Haines. 404, U.S. at 520. And
while the Court agrees with defendants that the first amended
complaint contains references to a number of extraneous facts,
considering plaintiffs pro se status the Court also

♦

34

5 ■*

does Hot find this factor to he a sufficient basis to recommend
dismissal. Through their counsel defendants are able to discern the
salient facts which could form the basis of viable legal claims.
It is clear from plaintiffs allegations that he believes

'<

defendant Honea was not doing a good job. While not directly
relevant to possible legal theories, these allegations put other
alleged facts in context. For example, plaintiff repeatedly alleges or
infers that defendant Honea foiled to adequately train his
subordinates. In fact, defendants' argument discussed below that
plaintiffs allegations foil short of establishing supervisory liability
for claimed civil rights violations suggests the first amended
complaint is sufficient enough to put defendants on notice of this
claim and to allow them to formulate their defense.
B: Failure to state a r»1flim?
r

defendants argue:
* Here, Plaintiffs FAC fails to state a claim upon which
.

i

-

I. v

(

t

*

* relief may Be granted, as well as failing to state facts
TT -Jj *J-

-.v

a

v .

sufficient to state a claim!. Plaintiffs claims should be
“ dismissed pursuant to Federal Rule of Civil Procedure 12
- •

(b)(6) - A
• 2♦ . .

35

ECF No. 43-1 _
.. Because this argument is not further developed with any
analysis of the facts alleged in the first amended complaint, or
evaluation of the omissions that defendant contends are at issue''
here, the Court declines to consider the charge thatPlaintifFs FAC
fails to state a claim.

C: Supervisor Liability:
Defendants argue plaintiff has failed to allege facts sufficient
to a causal link between a constitutional violation and defendants
Honea, Smith and Jones whom defendants state are supervisory
personnel.
lb state a claim under 42 U.S.C. 1983, the plaintiff must
allege an actual connection or link been the actions of the named
defendants and the alleged deprivations, See Monell v. Dep't of
Social Servs. 436 U.S. 658 (1978); Rizzo v Goode. 423 U.S. 362
(1976).-“ A person ‘subjects’ another to the deprivation of a
constitutional right within the meaning of 1983, if he does an
affirmative act, participates in another’s affirmative acts or omits to
perform an act which he is legally required to do that causes the
deprivation of which complaint is made” Johnson v. Duffy 588 F.2d
740, 743 (9th Cir.

\

---

36*
1978). Vague and conclusory allegations concerning the
involvement of official personnel in civil rights violations are not
- sufficient. See Iw v. Board of Regents. 673 F. 2d 266, 268 (9th Cir
1982). Rather, the .plaintiff must set forth specific facts .as to each
• individual defendant's casual role in the alleged constitutional
deprivation. See Leer v. Murohv. 844, F.2d 628,634 (9th Cir. 1988).
Supervisory personnel are generally not liable under 1983 for the
actions of their employees. See Tavlor v. List 880 F.2d 1040, 1045,
(9th Cir. 1989) (holding that there is no respondeat superior
liability under 1983) A supervisor is only liable for the
constitutional violations of subordinates if the supervisor
participated in or directed the violations See id The Supreme Court
has rejected the notion that a supervisory defendant can be liable .
35
based on knowledge and acquiescence in a subordinate's
unconstitutional conduct because govemmentofficials, regardless of
i their title can only be held liable tinder 1983 for his or her own *
conduct and not the conduct of others. See Ashcroft v. Tnhal 556
.' -.

U-A- 662, 676 (2009); but see Johnson v. City of villein 99 F. Supp
4 .3d. 1212, 1219 (E,D. Cal. 2015) (holding supervisory personnel may

~' ,

be liable for the constitution violations of subordinates if there is
sufficient nexus between such violations and the supervisor's own
conduct). Supervisory personnel who implement a policy so

,

^ deficient that the policy itselfis a repudiation of constitutional

4v

37
r

rights and the moving force behind a constitutional violation may,
for example, be liable even where such personnel do not overtly
_ participate in the offensive act. See Redman v. Cntv of

f)|pgn

942 F.2d 1435, 1446 (9th cir 1991) (en banc).When a defendant
holds a supervisory position the causal link between such defendant
and the claimed constitutional violation must especifically alleged.
See Eale v. Stanley. 607 F. 2d 858, 862 (9th Cir. 1979) Mosher v.
Saalfeld, 589.

36 F.

2d 438 441(9th Cir. 1978)
1- Defendant Honea
The Court agrees with defendants that the first amended
complaint continues to fail to establish a sufficient causal nexus
between the conduct of defendant Honea and civil rights violation.
Defendant Honea as the Butte County Sheriff* 4s a supervisory
defendant. As such, he is not liable for the conduct of subordinates.
Defendant Honea may only be held liable for this own conduct, such
as implementation of a constitutionally deficient policy. As with the
original complaint, the first amended complaint does not outline
any specific conduct on the part of Defendant Honea. Every
reference to Defendant Honea is made in the context of plaintiffs
various encounters with deputies;

_ .

Tb the extent Defendant Honea may be held liable for the
conduct of his deputies alleged in the

38
complaint, the Court finds that plaintiff has not alleged a sufficient
causal nexus between such conduct and Defendant Honea. For
!

exainple, plaintiff has not alleged that Defendant Honea’s
deputies acted pursuant .to any policy implemented by Defendant
Honea, let alone a policy so constitutionally deficient as to caused,
civil rights violation, Nor has plaintiff alleged that Defendant
Honea even new of the alleged conduct of his deputies'. Finally,
plaintiff has not alleged any facts to support a failure to train
theory of liability, even

if such a theory is viable.

2. Defendant Smifo
As to defendant Smith, a lieutenant with the Butte County
Sheriffs Department, plaintiff alleges failure to cooperate with the
California Highway Patrol into investigation of what plaintiff
characterizes as a “drug operation”. ECF No. 40, pg~8. According to
plaintiff:” the Pfplaintiff] strongly believes, that Lt. Smith, did not
want to cooperate with the CHP, because the crimianl Curus is
white, and the messenger was a brown and crazy sand nigger.” Id.
Plaintiff, however, alleges no facts to indicate the basis of his
, .belief

- * 1

-

.

"

ft 4*

In essence, plaintiff claims defendant Smith failed to
investigate drug crimes allegedly
•v.

committed by a white person because they were

-

,*

39
reported by plaintiff, who is not white. This claim does not even
suggest any-violation of plaintiff’s civil rights as the person
reporting crimes, let alone a causal nexus between defendant Smith
and such violation. Plaintiff’s unsupported belief fails to state a
claim against defendant Smith.

'

3. Defendant Jones
According to plaintiff, he complained about improper
treatment by sheriff’s deputies and requested an internal
investigation and that he was told an investigation would be
conducted See ECF No. 40 pg. 5. Plaintiff alleges that, when he
called to follow up on the status of that investigation he was told by
defendant Jones that he was “frivolous and unfounded”. M- The
Court agrees with defendants that these allegations fail to establish
a causal nexus between defendant

Jones’ conduct and a

constitutional violation.

D: Prosecutorial immunity
Defendants argue defendant Ramsey, the Butte County
District Attorney, is entitled to absolute prosecutoriallmmunity .
See ECF No. 43-1, pg. 9 The Court agrees. Plaintiff’s allegations
concerning defendant'Ramsey all relate to his prosecutorial
function of deciding whether to prosecute. When acting in a
prosecutorial capacity, prosecutors in a district attorney’s office
*

£ -

40

state’s sovereign immunity from civil rights suits. See DpI fiamp v
Kennedy. 517 F. 3d 1070,1073 (9th Cir. 2008); see also Imbler v.
Pachtman. 424 U. S. 409, 430 (197©. Defendant Ramsy should'be
dismissed with prejudice

IV. CONCLUSION
Given the lower standard to which pro se litigants are held
and to the extent it remains possible that plaintiff may be able to
allege facts which address the defects discussed above, the Court
recommends plaintiff be granted a final opportunity to amend.
Based on the foregoing, the undersigned recommends that:
•-f

1. Defendants’ motion to dismiss, ECF no. 43 be granted.
2. Defendant Ramsey be dismissed with prejudice; and
3. Plaintiff be granted leave to amend as to his claims against the
remaining defendants.

.

The findings and recommendations are submitted to the
United States District Judge assigned'to the case, pursuant to the
provision of 28 U.S.C 636 (b) (1). Within 14 days after being

i
i

41

;r.

T-- :

v

•*

•* •

~.:-r

served with these findings and recommendations, any party may
file written objections . Failure to file objections within the
>

*

specified time .may waive the right to .Appeal See Martinez v. Ylst
951 F. 2d 1153 (9th Cir. ,1991)

•v
•vf-

*v

*,
\

Dated: September 23, 2020 /s/DENNIS M. COTA
DENNIS M. COTA
UNITED STATES MAGISTRATE JUDGE
• ",r •

i

■:
■■■

/
•'
f

f.

•v.

:>;
4
i.

,r

-c-

■ ?

;;

r:

A
*7

\

;■

\

. >;*

-.-r:

r*
l
i
•T

•r

V,

::

:

~;

;>
•r
' J ■■

y-.

.;
P

42- *

FILED

Appendix C y
APR 26 2021

Molly c. dwyer,
CLERK U.S. COURT OF APPEALS

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Eastern District of California
No. 20-17350
D.C. No. 2:19-cv-01080-JAMJDMC
GEORGE BOUTROS
Plaintiff-Appellant
V.
CORY HONY: et al
Defendants-Appellees.

z!
f*

43
Before: THOMAS, Chief Judge, HtJRWITZand
BADE, Circuit Judges.

\

Appellant has filed a combined motion:for
reconsideration and motion reconsideration enbanc
{Docket Entry No; 5). r
This motion for reconsider ation is denied and the
motionfor reconsideration en banc is.-denied on
behalf of this court. See 9th Cir. R; 27-10; 9th 9th
Cir. Gen.,Ord. 6.11
No further filings wjll be entertained in^this cldsed
case.. See 9th.Gin R. 27-10;;9th 9th 0^ Gen. Oxi. *
6.11

•P-

»

No further filings will be entertained in this closed
case.
J
•*
• ••

*

- ^

5
yi

4

s

\

»

. 'v

p

*

f* *

*■

i

-

M
appendix d

k

0f
V

Case 2;19-cv-1080-JAM-DMC Document 3o-2 filed
12/6/19 page/o of-55

5:

Case 2:19-cv-lQ80-JAM-DMC Document 33 filed
11/22/19 page 33^ of 38
4

(

DOCKET SHEET
Defendant(s)GEORQE JAMIL BOUTROS 245 (A)(1) Tl 245
CA)(1) F120001 (B)
N
Agency OPi) 19-0942 Daw Authorized 05/28/2019 Superior court £
DATE JUD GEDDA'DEFENSE ATTY MOTIONS WAITERS etc
NEXT DATE
i

05/28/2019. Mathew G

on 3/7/19

-<r

Taylor
D drove driverand passenger (Both Vs) off thejroad. He then
turned around again and ran into the passenger side of the
vehicle. V (passenger) -Went to the hospital D, Boutros is
arrested he doesn't denser admit behaves crazily, at the OPD.
- V positively id"sD in 6-pacL Also has video oJd mating
admissions
)

.

Hs; 2013:25103 (a)'needreportsOR; No D poses a danger to
piiblicsafety, attacked a stranger yith his car. If OR-, no t
dnVmg/no con-subs, and repotttoBCBHHlliifriS his second
similar-offense.

■ 4

■»

.

0

•V

"V-

"*

>

.

